May 15, 2012


TO:            Peter Budetti
               Deputy Administrator and Director
               Center for Program Integrity
               Centers for Medicare & Medicaid Services

               Deborah Taylor
               Director and Chief Financial Officer
               Office of Financial Management
               Centers for Medicare & Medicaid Services

FROM:          /Brian P. Ritchie/
               Assistant Inspector General for the
                 Centers for Medicare & Medicaid Audits

SUBJECT:       Medicare Compliance Reviews for Calendar Years 2009 and 2010:
               Piedmont Hospital (A-04-11-00081), Regional Medical Center at Memphis
               (A-04-11-00082), and South Miami Hospital (A-04-11-07023)

Attached for your information are advance copies of our final reports on our most recent hospital
compliance reviews. We will issue these reports to Piedmont Hospital, Regional Medical Center
at Memphis, and South Miami Hospital within 5 business days.

These reports are part of the Office of Inspector General’s hospital compliance initiative
designed to review multiple issues concurrently at individual hospitals. These reviews of
Medicare payments to hospitals examine selected claims for inpatient and outpatient services.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov, or your staff may contact
Lori S. Pilcher, Regional Inspector General for Audit Services, Region IV, at (404) 562-7750, or
through email at Lori.Pilcher@oig.hhs.gov.

Attachment

cc:
Daniel Converse
Office of Strategic Operations and Regulatory Affairs
Centers for Medicare & Medicaid Services
                                                             O FFICE OF A UDIT S ERVICES , R EGION IV
                                                              61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                               A TLANTA , GA 30303
May 17, 2012

Report Number: A-04-11-00082

Mr. Robert Frank
Corporate Compliance and Privacy Officer
Regional Medical Center at Memphis
877 Jefferson Avenue
Memphis, TN 38103

Dear Mr. Frank:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of Regional Medical Center at
Memphis for Calendar Years 2009 and 2010. We will forward a copy of this report to the HHS
action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-04-11-00082 in all correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Robert Frank


HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
  REGIONAL MEDICAL CENTER AT
MEMPHIS FOR CALENDAR YEARS 2009
           AND 2010




                        Daniel R. Levinson
                         Inspector General

                            May 2012
                          A-04-11-00082
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity of the patient’s diagnosis. The DRG payment is,
with certain exceptions, payment in full to the hospital for all inpatient costs associated with the
beneficiary’s stay.

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments to hospitals reviewed by this and related audits
included payments for:

    •   inpatient claims with payments greater than $150,000 and

    •   inpatient claims billed with high severity level DRG codes.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.



                                                         1
Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

The Medicare Claims Processing Manual, Pub. No. 100-04, chapter 1, section 80.3.2.2, requires
providers to complete claims accurately so that Medicare contractors may process them correctly
and promptly.

The Regional Medical Center at Memphis

The Regional Medical Center at Memphis (the Hospital) is a 651-bed acute care and
rehabilitation hospital located in Memphis, Tennessee. Medicare paid the Hospital
approximately $57.5 million for 3,240 inpatient claims for services provided to beneficiaries
during calendar years (CY) 2009 and 2010 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient services on selected claims.

Scope

Our audit covered $5,947,285 in Medicare payments to the Hospital for 60 inpatient claims that
we identified as potentially at risk for billing errors. These 60 claims had dates of service in CYs
2009 and 2010.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements but
did not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient
areas of review because our objective did not require an understanding of all internal controls
over the submission and processing of claims. Our review enabled us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from the National Claims History
file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.



                                                 2
We conducted our fieldwork at the Hospital from December 2011 to February 2012.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for CYs 2009 and 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   identified 60 inpatient claims for detailed review;

   •   reviewed available data from CMS’s Common Working File for the selected claims to
       determine whether the claims had been canceled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the selected claims;

   •   requested that the Hospital conduct its own review of the selected claims to determine
       whether the services were billed correctly; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                     RESULTS OF AUDIT

The Hospital generally complied with Medicare requirements for billing the inpatient claims
reviewed. Therefore, we have no recommendations.




                                                3
